No. 20-245

In the
Supreme Court of the United States
PATRICIA NELSON, Next friend of N.K., a minor,
Petitioner
v.
ESTEBAN RIVERA, Respondent.
On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Sixth Circuit

REPLY BRIEF FOR PETITIONER

CHRISTOPHER J. TRAINOR
Counsel of Record
AMY J. DEROUIN
Christopher Trainor & Associates
9750 Highland Rd.
White Lake, MI 48386
(248) 886-8650
Counsel for Petitioner

TABLE OF CONTENTS
TABLE OF
AUTHORITIES……………….…………….…...iii
ARGUMENT……………………………………..………..……1
CONCLUSION………………………………………..……10

i

TABLE OF AUTHORITIES
Cases
Ayala v. Wolfe, 546 Fed. App’x 197 (4th Cir. 2013)…….…7
Bletz v. Gribble, 641 F.3d 743 (6th Cir. 2011)…..…………5
Estate of Valverde v. Dodge,
967 F.3d 1049 (10th Cir. 2020)……………………………7, 8
George v. Morris, 736 F.3d 829……………………………5, 6
Jean-Baptiste v. Gutierrez,
627 F.3d 816 (11th Cir. 2010)…………………………..…….8
Lamont v. New Jersey, 637 F.3d 177 (3rd Cir. 2011)…..…6
Mullins v. Cyranek, 850 F.3d 760 (6th Cir. 2015)…...…1, 2
Nance v. Sammis, 586 F.3d 604 (8th Cir. 2009)…….….3, 4
Pace v. Capobianco, 283 F.3d 1275 (11th Cir. 2002)…..….9
Robinson v. Arrugeta, 415 F.3d 1252 (11th Cir. 2005)……8
Tolan v. Cotton, 572 U.S. 650 (2014)……………..…………3
Valderas v. City of Lubbock,
937 F.3d 384 (5th Cir.2019)…………………………………..7

ii

ARGUMENT
1. THE UNITED STATES COURT OF APPEALS FOR THE
SIXTH CIRCUIT ERRED IN ITS DECISION TO GRANT
QUALIFIED IMMUNITY TO RESPONDENT RIVERA BY
CONSPICUOUSLY
FAILING
TO
APPLY
LONGSTANDING PRECEDENT GOVERNING THE
SUMMARY JUDGMENT STANDARD THAT THE COURT
MUST ACCEPT THE FACTS IN THE LIGHT MOST
FAVORABLE TO THE NONMOVING PARTY WHEN IT
FAILED TO CONSIDER EVIDENCE IN FAVOR OF THE
DENIAL OF QUALIFIED IMMUNITY WHICH
INCLUDED, BUT IS NOT LIMITED TO, MINOR N.K’S
TESTIMONY, WITNESSES’ TESTIMONY, AND VIDEO
EVIDENCE.
Rivera argues that the Sixth Circuit did not
inappropriately take the facts in the light most favorable
to Rivera because there was no dispute of fact as to when
Rivera decided to shoot. However, Rivera’s state of mind is
inconsequential.
In support of his argument, Rivera relies upon a Sixth
Circuit case, Mullins v. Cyranek, 850 F.3d 760 (6th Cir.
2015). Notably, Rivera does not cite a substantially similar
case from this Court, and no petition came before the Court
for review of the Mullins decision. Furthermore, Mullins is
distinguishable from the instant case. In Mullins, the
defendant officer suspected that the plaintiff’s decedent
had a gun based upon the decedent’s actions of holding his
right side and positioning his right side away from the
defendant officer. Id. at 763. Based upon these concerns,

1

the defendant officer grabbed the decedent’s wrists, and
then, a struggle ensued. Id. The decedent was able to break
free long enough to take hold of his gun with his finger on
the trigger, and the defendant officer ordered him to drop
his weapon. Id. The decedent then threw the gun, and as
he was doing so, the defendant officer fired two fatal shots.
Id. The timing of the shots was based upon the appearance
of the casings in surveillance video of the scene, but the
casings were not conclusive evidence of the timing. Id. If
the casings appeared instantaneously with the shots, the
second shot must have been fired after the decedent had
already turned away from the defendant officer, but no
evidence in the record supported this conclusion. Id.
Notably, the autopsy report showed that the decedent
suffered only one gunshot wound. Id. The Sixth Circuit
held that the defendant officer reasonably believed that the
decedent was still armed at the time that he fired the
second shot, particularly in light of the fact that the
decedent only sustained a single gunshot wound. Id. at 768.
Unlike in Mullins, the video evidence in the instant case
is more conclusive as to the timing of the shot. Specifically,
the video evidence shows minor N.K.’s empty and partially
raised right hand in the frame at the time that Rivera fired
his shot. (A16, A19). Moreover, the decedent in Mullins
was physically struggling with the defendant officer before
the decedent placed his finger on the trigger of his gun.
Minor N.K. had no physical contact with Rivera. (A3, A22).
The disputed facts, taken in the light most favorable to
minor N.K., should have supported a denial of summary
judgment. Instead, however, the Sixth Circuit relied upon
Rivera’s argument that he “decided” to shoot while minor
N.K. still appeared to have his hand on the B.B. gun. (A10).
It is undisputed that minor N.K. did not have the B.B. gun

2

in his hand at the time he was shot, and to the extent that
Rivera alleges that he made the “decision” to shoot before
minor N.K. threw the gun, that question of fact should not
have been resolved by the Sixth Circuit. Pursuant to Tolan
v. Cotton, 572 U.S. 650 (2014), this question of fact should
be decided by a jury, and the Sixth Circuit opinion to the
contrary “reflects a clear misapprehension of summary
judgment standards in light of [the Court’s] precedents.”
Id. at 659.
A. RIVERA’S ATTEMPT TO ILLUSTRATE THE
ABSENCE OF A CIRCUIT SPLIT RELIES UPON
IRRELEVANT CASES AND IGNORES THE PRIMARY
ISSUE IN THIS CASE: THAT THE SIXTH CIRCUIT
FAILED TO APPLY THE PROPER SUMMARY
JUDGMENT STANDARD
Rivera further argues that there are sufficiently
similar cases in other circuits, thus illustrating that the
Sixth Circuit did not conspicuously fail to apply a
governing rule. Ms. Nelson’s principal Brief illustrated
that the conspicuous failure to apply the governing rule
with regard to the summary judgment standard is
widespread amongst the circuits. However, several circuits
have indeed reached the correct conclusion upon being
presented with similar fact patterns.
Specifically, Nance v. Sammis, 586 F.3d 604 (8th Cir.
2009) is instructive on this issue. In Nance, the Eighth
Circuit Court of Appeals affirmed the district court’s
decision denying the police officers’ request for summary
judgment based upon qualified immunity as it determined:
“(1) material questions of fact existed as to whether the
officers identified themselves as police, whether they saw

3

the decedent with a gun in his hand, whether they had
reason to fear for their safety at the time of the shooting,
and whether they gave warnings before using deadly force;
and (2) the right to be free from the use of deadly force was
clearly established.” Id. at 606. Specifically, the defendant
police officers conducted surveillance in the area of a
convenience store based upon information that two or three
males were going to rob it. Id. at 606-607. At the time, the
defendant police officer observed two black males (plaintiff
Farrow, who was 12 years old, and plaintiff Nance, who
was 14 years old). Id. at 607. However, the facts
surrounding the shooting of plaintiff Farrow were in
dispute. Specifically, the plaintiffs argue that “Farrow had
a toy gun tucked into the waistband of his pants. The gun
was gray with a black handle, and it had an orange cap at
the tip of the barrel…Farrow was shot while ‘fixing to get
on the ground’ and while the toy gun was still tucked into
his waistband.’” Id. To the contrary, the defendant police
officers argued that “[a]lthough Nance hit the ground
immediately, both officers say Farrow remained standing
and did not drop his weapon despite repeated commands to
do so and that he raised his right hand while still holding
the gun.” Id. The district court denied the defendant police
officers the protection of qualified immunity. On appeal,
the defendant police officers argued “that the case law is
not sufficiently established on a right to be free from the
use of deadly force ‘where the suspect has in his possession
a toy weapon that appears to be real and the suspect does
not comply with the officers’ commands.” Id. at 611.
However, the Nance Court held, “[f]or a constitutional right
to be clearly established, there does not have to be a
previous case with exactly the same factual issues” and
therefore upheld the denial of qualified immunity. Id.

4

Likewise, the Sixth Circuit previously held in
similar circumstances that a defendant officer was not
entitled to summary judgment based upon qualified
immunity. Bletz v. Gribble, 641 F.3d 743 (6th Cir. 2011).
In Bletz, the defendant officers drove to a family residence
to execute a bench warrant for the decedent’s son. Id. at
747. The defendant officers made contact with the son
without issue, but the decedent then appeared in the
doorway and pointed a gun at the defendant officers. Id. at
748. The defendant officers yelled at the decedent to put
the gun down, and the decedent did not promptly drop his
weapon. Id. One of the defendant officers fired four shots
at the decedent and killed him. Id. The Sixth Circuit
subsequently held that there was a question of fact
whether the decedent was lowering his gun at the time that
he was shot. Id. at 752. While the defendant officer argued
that the decedent never lowered his gun, this contradicted
testimony by the decedent’s son. Id. The Court found this
eyewitness’ testimony sufficient to create a genuine fact
dispute. Id. at 753. Given that a reasonable jury could find
that at the time the decedent was shot, he was complying
with the defendant officer’s order to drop his weapon, the
Sixth Circuit affirmed the district court’s denial of qualified
immunity. Id. at 752, 754.
Furthermore, the Ninth Circuit has also held that
qualified immunity should be denied where a similar
question of fact existed. George v. Morris, 736 F.3d 829. In
George, the plaintiff’s decedent retrieved a pistol from his
truck, loaded it with ammunition, and sat on the front
porch of his home. Id. at 832. The plaintiff, who was the
decedent’s wife, called the police and could be heard
exclaiming “No!” and “My husband has a gun!” Id. The
three defendant officers were dispatched for a domestic

5

disturbance and arrived with service revolvers as well as
two AR-15 rifles. Id. The defendant officers instructed the
decedent to show his hands, and when the decedent came
into view, he was using a walker and holding his firearm
in one hand with the barrel pointing down. Id. The
defendant officers broadcast that the decedent had a
firearm, and the three defendant officers fired at the
decedent. Id. at 833. The plaintiff filed suit on behalf of her
deceased husband, alleging, in relevant part, that the three
officers violated her husband’s Fourth Amendment right to
be free from unreasonable seizure. Id. The district court
held that whether the decedent presented a threat was in
dispute and therefore denied summary judgment. Id. at
834. While no video existed of the incident, the Ninth
Circuit affirmed based upon the circumstantial evidence
which could lead a reasonable jury to believe that the
decedent kept his weapon trained on the ground and did
not point it at the defendant officers. Id. at 838-39.
In contrast, the cases cited by Rivera are
distinguishable from the instant case. Lamont v. New
Jersey, 637 F.3d 177 (3rd Cir. 2011) involved a suspected
car thief fleeing on foot through thick woods. Id. at 183. The
plaintiff stopped with his hand in his waistband before
making a movement consistent with brandishing a gun. Id.
The Third Circuit held that the defendant officers were
justified in shooting while the plaintiff performed this
movement. Id. However, the Third Circuit further held
that subsequent gunfire after the plaintiff’s right hand was
visible constituted excessive force. Id. at 185. Therefore,
the Third Circuit denied qualified immunity to the
defendant officers based upon the shots fired after the
threat was no longer present. Id. Notably, the shot fired by
Rivera in the instant case was not fired until after minor

6

N.K.’s right had was visibly empty, as is supported by the
video evidence. (A16, A19).
In Ayala v. Wolfe, 546 Fed. App’x 197 (4th Cir. 2013),
an unpublished case, the defendant officer responded to a
report of an armed robbery. Id. at 199. Upon frisking the
plaintiff and feeling a weapon, the defendant officer backed
away and pointed his service weapon at the plaintiff. Id.
The plaintiff then removed the weapon from his waistband,
and the defendant officer fired several shots. Id. No video
captured the incident, and the plaintiff lost consciousness
during the incident. Id. at 199. Moreover, it was very dark
and the defendant officer testified that he never saw or
heard the plaintiff drop his weapon. Id. The Fourth Circuit
upheld the district court’s denial of qualified immunity. Id.
at 202. However, unlike in Ayala, in the instant case, the
video evidence supports that minor N.K. was raising his
empty hand at the time he was shot. (A16, A19).
In Valderas v. City of Lubbock, 937 F.3d 384 (5th Cir.
2019), the plaintiff was arrested pursuant to a felony arrest
warrant for a parole violation. Id. at 386. The plaintiff had
a “violent and lengthy criminal history” and was
considered armed and dangerous. Id. at 387. The plaintiff
pulled out his gun and then threw his gun in the car, but
all three officers testified that they did not see the plaintiff
discard his gun. Id. Video evidence did not show the
plaintiff putting his hands up. Id. at 390. The Fifth Circuit
granted qualified immunity based upon the defendant
officers’ reasonable belief that the plaintiff had a weapon.
Id. In contrast, minor N.K. had no known “violent and
lengthy criminal history,” and both the video evidence and
witness testimony supports that he had begun to put his

7

hands up at the time he was shot. (A3, A16, A18, A22, A27,
A29).
Estate of Valverde v. Dodge, 967 F.3d 1049 (10th Cir.
2020) is yet another case in which the plaintiff’s decedent
was a suspect had a prior criminal history. Id. at 1055.
Specifically, defendant SWAT team organized a drug bust
upon the plaintiff’s decedent, who was also known to have
sold illegal weapons, including AK-47s. Id. at 1054-55. As
the officers surrounded the decedent during the drug bust,
the decedent pulled out a gun, and the lead officer yelled
that the decedent was armed. Id. at 1057. The defendant
officer then fired five shots in quick succession. Id. The first
shot was fired less than a second after the decedent pulled
out his gun. Id. at 1063. Based upon these facts, the Tenth
Circuit held that the defendant officer’s actions were
reasonable, even if the decedent had actually discarded the
gun at the time he was shot. Id. Valverde is distinguishable
from the instant case in that it involved a tense situation
(a drug bust where the suspect was known to deal illegal
weapons).
The remainder of the cases cited by Rivera are
equally unpersuasive. Jean-Baptiste v. Gutierrez, 627 F.3d
816 (11th Cir. 2010) involved a fleeing robbery suspect who
admittedly had a gun in his hands but argued that he was
not pointing it at the officers. In contrast, minor N.K. had
already disposed of the gun and was raising his hands at
the time he was shot. In Robinson v. Arrugeta, 415 F.3d
1252 (11th Cir. 2005), the defendant officer responded to a
drug bust when the plaintiff’s decedent got into his vehicle
while the defendant officer was in front of the vehicle. Id.
at 1254. The defendant officer pointed his gun and
identified himself as a police officer, but the decedent

8

merely “grinned” and began to slowly accelerate towards
the defendant officer. Id. The defendant officer then shot
the decedent. Id. While the defendant officer could have
moved out of the path of the moving vehicle, the Eleventh
Circuit held that the defendant officer reasonably believed
that the decedent was using his vehicle as a weapon
against the defendant officer and therefore, the use of force
was justified. Id. at 1256. Finally, in Pace v. Capobianco,
283 F.3d 1275 (11th Cir. 2002), during a traffic stop, the
plaintiff’s decedent, a man, was discovered to have a social
security number belonging to a woman. Id. at 1276. The
responding officer initiated a pat down, and the decedent
struggled before breaking free and returning to his car. Id.
As the decedent started his car, responding officer
attempted to neutralize him with pepper spray, but the
decedent was undeterred and subsequently led the
responding officer as well as additional responding officers
on a high-speed car chase during which the decedent drove
directly towards police cars; drove through someone’s yard
at 50-60 mph; and nearly hit an elderly motorist head-on.
Id. When the decedent was cornered in a cul-de-sac, he
failed to comply with orders to get out of the car and kept
his engine running. Id. at 1278. The defendant officers
fired at the decedent through his windshield. Id. An
affidavit submitted by a witness contended that the
decedent was not a threat at the time of the shooting, but
the Eleventh Circuit emphasized that the witness did not
have the context of the prior high-speed chase which lead
the defendant officers to conclude that the decedent was a
threat. Id. at 1280. Therefore, the Eleventh Circuit granted
qualified immunity to the defendant officers. Id. at 1283.

9

B. MS. NELSON’S PETITION DOES NOT ASK THIS
COURT TO “DO AWAY WITH” QUALIFIED
IMMUNITY, BUT RATHER TO REAFFIRM THE
SUMMARY JUDGMENT STANDARD IN LIGHT OF
THE WIDESPREAD CLEAR MISAPPREHENSION OF
THIS STANDARD BY THE SIXTH CIRCUIT AND
OTHER COURTS
Finally, Rivera misconstrues Ms. Nelson’s petition
as a call to “do away with” qualified immunity. This is
untrue. Rather, Ms. Nelson highlights the ways in which
the summary judgment standard has been abused in
qualified immunity cases such as the instant case. Ms.
Nelson relies upon articles analyzing this standard rather
than articles asking the Court to do away with qualified
immunity. Ms. Nelson instead asks that this Court
reaffirm the importance of taking the facts in the light most
favorable to her given the clear misapprehension of the
summary judgment standard by the Sixth Circuit.
CONCLUSION
The Writ of Certiorari should be granted.
Respectfully submitted,
CHRISTOPHER J. TRAINOR
Counsel of Record
Christopher Trainor & Associates
9750 Highland Rd.
White Lake, MI 48386
(248) 886-8650

10

